                                                        f-
                            l*.\TIONAC SCIENCE FOUNDATIOh
                                 WASHINGTON, D.C. 20550



                    >*,-
                  ,.- -
    Office of   . jr:

Inspector ~eneral"A%.



  CLOSING MEMORANDUM

         DATE:        arch' 5,   1991
            -
     SUBJECT:     /
            TO: File
         FROM:
 The complainant believes that her proposal for research fuqding
 was inappropriately evaluated by NSF staff and by outside
 reviewers.
 We believe the Foundation exercised its discretion reasonably in
 deciding to decline b                     proposal because of N S F 1s
 assessment that the ~  - -
                          r o ~ o s a did
                                      l   not  provide a sufficient
 research hv~othesis. Because we concluded that NSF acted
 reasonably             )-(
                declining                       proposal, we consider
 this matter to be closed.


              Counsel tb Inspector General
